<html>
<title> - H.R. 4863, TO ESTABLISH THE NATIONAL MUSEUM OF THE AMERICAN LATINO</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
   H.R. 4863, TO ESTABLISH THE NATIONAL MUSEUM OF THE AMERICAN LATINO

=======================================================================

                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 22, 2004

                               __________

      Printed for the Use of the Committee on House Administration


                      U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON : 2004
95-897

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                   COMMITTEE ON HOUSE ADMINISTRATION

                           BOB NEY, Chairman
VERNON J. EHLERS, Michigan           JOHN B. LARSON, Connecticut
JOHN L. MICA, Florida                  Ranking Minority Member
JOHN LINDER, Georgia                 JUANITA MILLENDER-McDONALD, 
JOHN T. DOOLITTLE, California            California
THOMAS M. REYNOLDS, New York         ROBERT A. BRADY, Pennsylvania

                           Professional Staff

                     Paul Vinovich, Staff Director
                George Shevlin, Minority Staff Director


   H.R. 4863, TO ESTABLISH THE NATIONAL MUSEUM OF THE AMERICAN LATINO

                              ----------                              


                        THURSDAY, JULY 22, 2004

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 1:37 p.m., in room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
(chairman of the committee) Presiding.
    Present: Representatives Ney, Ehlers, Larson, and 
Millender-McDonald.
    Staff Present: George Hadijski, Director, Office of Member 
Services; Paul Vinovich, Staff Director; Payam Zakipour, 
Professional Staff; George Shevlin, Minority Staff Director; 
Matt Pinkus, Minority Professional Staff Member; and Charles 
Howell, Minority Chief Counsel.
    The Chairman. The committee will come to order.
    Today's hearing will focus on the proposal to form a 
commission to examine the potential establishment of a National 
Museum of the American Latino in Washington, DC.
    A couple of bills have been introduced on the subject, but 
today, our committee will focus on the most recent, H.R. 4863.
    I would like to thank our panel members who authored the 
bill, the Secretary of the Smithsonian Institution, who will 
discuss the Smithsonian's perspective on the potential of the 
museum, and our distinguished witnesses, who have extensive 
backgrounds in museums as well as Latino art, history and 
culture.
    My goal in today's hearing will be to discuss this issue 
broadly, and provide some guidance to the future commission 
looking to the challenges that would face all museums we would 
authorize. These challenges always have included, in the past, 
budgetary constraints, the physical location of the museum 
itself, staffing, what exhibits would be a part of such a 
collection and ensuring a diverse audience to sustain the 
museum for decades to come. The proposed commission would have 
a great responsibility putting forth recommendations to create 
a museum that would make the Hispanic community proud, make our 
Nation proud and capture the important contributions that the 
Hispanic community and Latino community have made to the 
history and culture of our Country.
    The very discovery of our Country by Christopher Columbus 
can be directly attributed to assistance he received from Queen 
Isabella of Spain. Our ranking Member is a history expert, and 
he will verify that is accurate when he speaks, I hope.
    In fact, two of the panes in our U.S. Capitol Rotunda 
highlight the accomplishments of Columbus' discovery of the New 
World for Spain and Hernando de Soto's discovery of the 
Mississippi River. As a part of our revolutionary history, 
Hispanic General Bernardo de Galvez, who was governor of the 
Louisiana Territory at the time, sent money, rifles and other 
supplies to General George Washington during the Revolutionary 
War.
    These are a small sampling of the impact and contributions 
Hispanics have made to our Country's history. Significant 
events such as these deserve to be captured and memorialized 
for future generations to learn and appreciate. However, our 
job today is to ensure that we create a process for doing so, 
and to make sure it is fiscally and socially responsible, yet 
sustains the idea that we unite as one Country of many 
different cultures, which I think makes our Country so great.
    There should always be a compelling reason for the 
establishment of such a museum. If not, we diminish the 
significant contributions of all other communities. A strong 
argument can definitely be made, based on the broad impact 
Hispanic Americans have made on our population, as it is widely 
predicted that, within 10 years, Hispanic Americans will 
comprise the largest minority group in our Country. There is a 
sizable audience who would have a strong interest in the 
establishment of such a museum, but it would not be limited to 
Hispanic Americans. This museum would be available to all 
people, not just in the United States, but around the world.
    A strong interest is a vital component of a proposed 
museum, as there is an ongoing concern that, as more and more 
museums are proposed for each respective community, there will 
be increasing pressures on the Federal Government to sustain 
each museum if there is insufficient public interest. This is 
something that is looked at every single time we talk about a 
new museum.
    That is why precisely we have to look at these decisions 
and with significant forethought. The formation of a commission 
to look into these specific issues, definitely I think, is a 
step in the right direction that can lead to the building of 
this great museum.
    Again, I want to welcome everybody here today. I appreciate 
both of our Members, Congresswoman Ileana Ros-Lehtinen and also 
Congressman Xavier Becerra, and Iappreciate your insight on 
this and the bipartisan support of the bill and bringing this to the 
committee's attention.
    With that, I yield to our distinguished ranking Member, 
Congressman Larson of Connecticut.
    Mr. Larson. Thank you very much, Mr. Chairman.
    And let me too extend our welcome to our panelists and 
distinguished Dr. Small, who joins our two distinguished 
Members from Congress as well.
    I think this is a bill that is long overdue. I thank you 
for putting everything into proper historic perspective. A few 
gaps, perhaps, but nonetheless, I think that is why it is so 
important that we not only treasure our past, but our future.
    And I think, based on the conversations that I have had 
with our distinguished Representatives from California and 
Florida about not only their persistency but the richness in 
the culture and the contribution that that culture has made to 
this great Country of ours and indeed around the globe and what 
a fitting way to establish this through a museum. As we project 
that into the future and we see that population of the United 
States, it would be near travesty if we did not have here in 
Washington, DC, a museum that focused on the incredible 
contributions that have been made on behalf of the citizens of 
this Country by the Latino community.
    I join with you, Mr. Chairman, also in making sure that, 
for mostly jurisdictional purposes, that any such museum would 
be part of the Smithsonian Institution. I expect the commission 
would look at and study whether that would be desirable along 
with any other questions that the bill calls for them to 
examine. And I am pleased that Secretary Small is with us here 
today to hear his testimony as well.
    And with that, Mr. Chairman, I would yield back and wait 
with anxious anticipation to hear from our distinguished 
Members of Congress.
    [The statement of Mr. Larson follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    The Chairman. I would like to thank the distinguished 
ranking Member, and we will go right to the panel.

STATEMENTS OF THE HON. ILEANA ROS-LEHTINEN, A REPRESENTATIVE IN 
    CONGRESS FROM THE STATE OF FLORIDA; AND THE HON. XAVIER 
    BECERRA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
                           CALIFORNIA

    The Chairman. I have relatives in both of your States, but 
we will start with the gentlewoman from Florida.

           STATEMENT OF THE HON. ILEANA ROS-LEHTINEN

    Ms. Ros-Lehtinen. Thank you so much, Mr. Ney and Mr. 
Larson, for being good friends of this legislation and trying 
to help us shepherd it through its various channels.
    And I especially want to thank my great friend from 
California, Xavier Becerra, for his leadership on this bill. 
And I want to thank him for letting me help him make this bill 
a reality. I cherish this opportunity. Thanks to Xavier, a 
museum to commemorate Hispanic Americans will soon become a 
reality and I hope it is soon in our Nation's capital.
    The National Museum of the American Latino is meant to be a 
salute to the nearly 40 million Hispanics who proudly call the 
United States their home. These Americans have contributed 
their time and hard work to make this a better Country. 
Hispanics have accounted for nearly half of the 9.4 million 
residents added to the Nation's population just since the 2000 
census, and our numbers show no sign of decreasing.
    The Hispanic population growth rate of 13 percent over the 
39-month period was almost four times that of the total 
population. We Hispanics are very proud to call ourselves 
Americans. We may come from many different places, but we are 
united in the common cause of making this the best Country in 
the world.
    From the Rio Grande to the Tierra del Fuego, we make up 
countries as diverse as Mexico and Chile. We populate mountains 
in Peru and beautiful beaches in Costa Rica. Some,like 
Nicaraguans or Cubans like me, came from countries fleeing communism, 
while others came fleeing failing economic situations. Still others, 
like the residents the Estado Libre Asociado de Puerto Rico, are 
Hispanics who are born Americans and are as honored to be a part of 
this great Nation as anyone else in this Chamber. And while we are 
different in many ways, we are also intimately connected. We share the 
same language and many of the same traditions.
    In the United States, Hispanics have made and continue to 
make great contributions. We have served our Country with 
valor. While only comprising 13 percent of the U.S. population, 
Hispanics make up 18 percent of those serving under uniform. 
Almost one-fourth of the active-duty enlisted men and women in 
the United States Army are Hispanic.
    We Hispanics have also served our Country in public office. 
Xavier and I are just two of the 23 Hispanics who serve in the 
U.S. House of Representatives, and over the entire history of 
this Congress, 56 others have served in this distinguished 
Chamber, along with three others who have had the privilege of 
being elected United States Senators. Currently, Hispanics also 
serve in over 4,400 other elected public offices throughout our 
great land.
    Our contribution to this Nation does not stop there. In 
fact, Hispanics have and will continue to contribute to make 
sure that this remains the greatest Country in the world. 
Whether it is as director of the Bureau of Citizenship and 
Immigration Service, like Eduardo Aguirre, or the former 
Secretary of HUD, Mel Martinez, we are helping to make and keep 
this the strongest economy in the world as a member of the New 
York Stock Exchange, my constituent, Leo Guzman.
    But this museum is first and foremost for the Hispanic 
family and will continue to work for the American dream. 
Whether by foot, bus, boat or by plane, millions have come here 
to be part of what is still the greatest political experiment 
in the world. Hispanics also came so their children may grow 
and have access to higher education, so that they can find work 
and because they know that, if you work hard in America, you 
will achieve your dreams.
    In trying to advance themselves, they have immensely 
improved our Country. They have added also a little bit of 
Latin flavor along the way. And what better way to recognize 
the past contributions of the Hispanic community and to 
encourage new ones from our youth than by establishing this 
National Museum of the American Latino right here in 
Washington, DC.
    This museum will allow our young Hispanics to visit our 
capital, to learn the rich contributions their ancestors have 
made. But more importantly, it will allow them to dream of the 
endless possibilities and achievements that they can make as 
part of this Nation. This museum is an invaluable asset to our 
Nation. And what better place than our Nation's capital to 
provide a voice and a face to these 40 million Americans.
    And I want to thank the Chair and the ranking Member for 
allowing my constituent, Diane Camber, the executive director 
of the Bass Museum of Art of Miami Beach, to be one of the 
witnesses here who is a proud promoter of this museum. And I 
thank the Chairman, the ranking Member and the Members of the 
committee as well.
    Thank you, Xavier, for your friendship.
    [The statement of Ms. Ros-Lehtinen follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    The Chairman. I thank the gentlewoman for her testimony.
    And the gentleman from California.

              STATEMENT OF THE HON. XAVIER BECERRA

    Mr. Becerra. Mr. Chairman, ranking Member Larson and 
Members of the committee, thank you very much for holding this 
hearing on H.R. 4863.
    I would also like to thank my friend and colleague from 
Florida, Ms. Ileana Ros-Lehtinen, not just for being a 
cosponsor but being an indispensable supporter and cosponsor of 
this legislation.
    This is a bill that will, we hope, move through Congress in 
a bipartisan fashion and gather the support of people 
throughout this Country that recognize that there is not only 
an interest but a need to reflect what is America throughout 
our institutions of culture, art and history.
    The commission that would be established under H.R. 4863 
would establish the National Museum of the American Latino 
Commission. And this commission would be charged with examining 
and reporting to Congress and the President the parameters of a 
plan to establish a new museum dedicated to the art, history, 
and culture of the Latino population of theUnited States.
    The commission would be comprised of experts from the 
various fields of national art, the museum communities, and it 
would also include individuals with experience in 
administration and development of cultural institutions. The 
commissioners would be appointed on a bipartisan basis by the 
President and leaders of the House and the Senate.
    Three years ago, the National Capital Planning Commission 
gave expression to the primary function of the cultural and 
historical exhibitions on the National Mall. It said, quote, 
``The memorials and museums that define Washington's monumental 
core express America's connection to its past and its direction 
for the future . . . They help us understand what it means to 
be an American.''
    Latinos have been part of American history since before the 
founding of the United States. They were present on the 
American continent for more than 2 centuries prior to the 
Declaration of Independence. Spanish colonists founded the 
first permanent settlement in the continental United States in 
St. Augustine, Florida, in 1565, four decades before Jamestown 
and Plymouth Rock. And during the American Revolution, General 
Washington's army was successful at Yorktown in part because of 
support from a multi-ethnic army lead by Bernardo de Galvez on 
a southern front against the British, driving them out of the 
Gulf of Mexico, fighting them on the Mississippi and in 
Florida.
    In every subsequent military conflict, Latino soldiers have 
fought alongside their American brethren. In fact, there are 
proportionately larger number of our Nation's Congressional 
Medal of Honor awardees that are of Latino heritage than from 
any other ethnic group.
    We are a Nation of 290 million people, 40 million of whom 
are Latinos that share a heritage drawn from a combination of 
Old World and New World cultures. Among America's ethnic 
groups, Latinos are unique in the fact that you can find mixed 
strains of cultural influence from Europe, Africa and the pre-
Colombian Americas, and the mixtures of cultures makes many 
Latinos open to change, to adoption of new norms and customs, 
to add new flavors to the recipes we cook and to accept 
differences in others. In a word, Latinos reflect what it means 
to be an American, a citizen of a Nation that welcomes and 
embraces diversity.
    For many, many years, many Americans--Latinos and 
otherwise--believed that the mosaic portrayed in Washington 
museums was missing a few tiles. In response, during the 
1990's, the Smithsonian examined itself and determined in its 
own studies that the mirror it was holding up to America was 
indeed incomplete. In 1997, The Center on Latino Initiatives 
was launched in part as an effort to respond to those studies 
and to help lead to the future.
    In the last several years, the Center For Latino 
Initiatives has successfully promoted many more Latino-
inclusive programs for the entire Smithsonian. The center 
itself made the museum community in Washington more reflective 
of the entire American population and has been at the core of 
the organization of several important national traveling 
exhibits.
    I am not a museum expert nor an art historian, but there 
are plenty of talented people in the community that could think 
seriously about what it would take to begin this project. The 
commission proposed by this legislation would determine how 
best to reflect historical and cultural contributions of the 
diverse community and of the 40 million Latinos living in the 
United States.
    Washington is a capital that represents so much of what is 
America, and so many people come to visit Washington because of 
what it represents: 17 million people visited last year, and 1 
million came from outside of this Country to visit Washington, 
D.C. One in three of these individuals who visited did visit an 
art or history museum. Over 35 million individuals attend the 
Smithsonian museums and traveling exhibits every year; 90 
percent of these visitors are from the United States. As you 
can imagine, many are children visiting with their parents or 
on school trips.
    This legislation, H.R. 4863, is just another building block 
in developing what has become the American experience--what we 
teach ourselves and share with the world. Passage of this bill 
would be the first step towards giving America and all of its 
people a better chance to fully experience what it means to be 
an American.
    Once again, Mr. Chairman, ranking Member Larson and Members 
of this committee, thank you to you, to the Members of this 
committee.
    Thank you to principal cosponsor and friend, Congresswoman 
Ileana Ros-Lehtinen.
    We look forward to working with all of you to make sure 
that this legislation has an opportunity to pass.
    Thank you.
    [The statement of Mr. Becerra follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    The Chairman. I want to thank you for your testimony.
    And I will defer at this time to the ranking Member if he 
has questions.
    Mr. Larson. Thank you very much, Mr. Chairman.
    Again, I just want to applaud both of you.
    Both the Chairman and I have discussed how important we 
believe this legislation is and will do everything to move it 
forward in an aggressive a fashion as we can. I know that we 
have been joined by two other distinguished Members, so I will 
yield at this time back to the Chairman so he can recognize the 
other Members for any statement that they might have.
    The Chairman. The gentleman from Michigan.
    Mr. Ehlers. No questions. Thank you, Mr. Chairman.
    The Chairman. The gentlewoman from California.
    Ms. Millender-McDonald. Thank you, Mr. Chairman and ranking 
Member.
    I thank my friends for being here this morning. It is a 
pleasure for you to come before this committee to talk about 
the rich heritage of the Latino population. We recognize the 
contributions that you have made to this Country and to your 
own native countries, the doctors and lawyers and attorneys and 
just those who work in the commonplace that provide such 
distinction among Americans because they are Americans.
    And so it is so fitting for you to be in front of this 
committee to talk about a museum of culture. A museum that will 
display the rich heritage of your people, which really are our 
people because we are all people of one, and that is America.
    Thank you all, both of you, for being here and for bringing 
this piece of legislation and this initiative to us.
    Thank you, Mr. Chairman.
    The Chairman. With that, no further questions, you are 
getting off the hook easy.
    Ms. Ros-Lehtinen. Muchas gracias.
    The Chairman. Si.
    Mr. Becerra. We did not realize you are bilingual.
    The Chairman. Si, Si. Two si's.
    We appreciate you bringing up the idea, and I think it is a 
tremendous idea. I think it is good for the Country. It is good 
for the culture, and the people, and I think visitors from all 
over the world would really appreciate it. I think it is 
something for future generations that will be a wonderful 
legacy that the Congress can give to the people who visit D.C. 
I really do not have any questions.
    Mr. Becerra. Thank you, Mr. Chairman.
    Members, thank you very much.
    The Chairman. We will move to the second panel.
    I want to welcome the second panel to the table. We have 
joining us Lawrence Small, who is Secretary of the Smithsonian 
Institution. In addition, we have Diane Camber, executive chief 
and curator of the Bass Museum of Art in Miami, Florida, and 
Dr. Jonathan Lorenzo Yorba, who chairs the Latino Network 
Professional Interest Committee of the American Association of 
Museums.

    STATEMENTS OF LAWRENCE M. SMALL, SECRETARY, SMITHSONIAN 
INSTITUTION; DIANE W. CAMBER, EXECUTIVE DIRECTOR-CHIEF CURATOR, 
BASS MUSEUM OF ART, SOUTH BEACH, FLORIDA; AND JONATHAN LORENZO 
 YORBA, CHAIR, LATINO NETWORK PROFESSIONAL INTEREST COMMITTEE, 
                AMERICAN ASSOCIATION OF MUSEUMS

    The Chairman. I want to welcome all of to you the Capitol.
    And Secretary Small, we will begin with you.

                 STATEMENT OF LAWRENCE M. SMALL

    Mr. Small. Thank you very much. Mr. Chairman and Members of 
the committee, thank you for the opportunity to testify today 
regarding legislation concerning a National Museum of the 
American Latino within the Smithsonian Institution.
    The Smithsonian, as a matter of policy, does not comment on 
pending legislation. However, I do want to say that the 
Smithsonian's Board of Regents and I would certainly welcome 
working with any commission the Congress might establish to 
study the establishment of a National Museum of the American 
Latino.
    I am here today to stress that the Smithsonian is deeply 
committed to enhancing its role in presenting the great 
contributions made by Latinos to the history and culture of 
this Country. We would like to be farther along in this 
important effort than we are, and we are working diligently to 
do just that.
    As you all know, the Smithsonian is the largest museum and 
research complex in the world, so I also want to stress today 
that I firmly believe that the Smithsonian has the managerial 
capacity to handle the sizable and complex challenges that are 
inherent in delivering the vital service that we do to the 
American people and public. And by way of example, just think 
of this: Last year, in less than a year we have opened the 
National Air and Space Museum's $300 million-plus companion 
facility that is adjacent to Dulles Airport. We have opened up 
the $35 million Hall of Mammals at the National Museum of 
Natural History, the $31 million Transportation Hall, America 
on the Move, at the National Museum of American History. Just 2 
months from now, the $220million National Museum of the 
American Indian will open up on the Mall. We are rapidly progressing on 
the $216 million revitalization of the 168-year-old Patent Office 
Building, which is home to the National Portrait Gallery and the 
Smithsonian American Art Museum, as well as completing $1.5 billion 
worth of deferred maintenance on our more than 400 buildings in the 
Smithsonian. And then, pursuant to last December's legislation, we have 
started on the National Museum of African American History and Culture 
which will be the 19th museum within the Smithsonian.
    So I am convinced that the fundamental challenge we face is 
not managerial capacity. We can get big projects done. The 
challenge is getting the money to do them. The Smithsonian 
thrives because of a public-private partnership that has been 
in place since its founding in 1846. That is essential to our 
future success. If the Government and the private sector 
provide the money, the Smithsonian can get the job done.
    With those two points in mind, let me just very briefly 
outline the efforts that have been made by the Smithsonian to 
tell the compelling story of the extensive Latino contribution 
to our Country. As Congressman Becerra mentioned, the 
Smithsonian Center for Latino Initiatives, established in 1997, 
is really galvanizing efforts across the entire Smithsonian. 
There are major initiatives under way with exhibitions, with 
public programs, with Web sites, education, activities and 
outreach.
    Just here on the National Mall a few weeks ago, we had the 
38th Annual National Folklife Festival; 800,000 people came to 
it. And featured very prominently was the Latino music program 
which was called Nuestra Musica: Music in Latino Culture. This 
is a first in a 4-year series that we are doing on Latin music. 
The public loved it. Congressman Becerra came and participated 
in the opening festivities, and while that was going on, we 
held the 2004 Smithsonian Institution Interpretation and 
Representation of Latino Cultures which is an annual forum that 
we do for cultural representatives and scholars to discuss how 
to improve the connection between museums and Latino 
communities.
    These two events occurring simultaneously served as 
bookends for this vibrant array of programs that take place in 
the Smithsonian. I do want to say that these programs would not 
take place without your help. I really want to thank the 
Members of Congress for the support of the Smithsonian's Latino 
Initiatives Pool which was created in 1995. This pool 
distributes a Federal appropriation of about $1 million each 
year to Smithsonian units that are seeking to produce Latino-
related events and reach Latino audiences. In the past 10 
years, the pool has distributed more than $10 million to over 
130 projects, programs, exhibitions, live performances and 
outreach initiatives.
    Congress has, in fact, increased the appropriated funding 
for the Latino Initiative Pool in fiscal year 2004 to $1.2 
million, approximately. And in turn, what this has done is 
given the ability to the Smithsonian to leverage dollars from 
the private sector. Most recently, the Ford Motor Company has 
donated approximately $1.8 million in support of two major 
traveling exhibitions, one, Our Journeys/Our Stories: Portraits 
of Latino Achievement, and another which is called Retratos--
which means ``portraits''--2,000 Years of Latin American 
Portraits.
    This most recent exhibition that we have done, Our 
Journeys/Our Stories: Portraits of Latino Achievement--which 
many Members saw at the National Museum of American History--is 
now touring the Country. It is now on exhibit in Chicago and 
will open in San Jose in September, Fort Wayne in December, San 
Juan in April 2005, Detroit in November 2005, and Decatur in 
February 2006.
    We have a great array of Web sites that are sponsored by 
the Smithsonian Center of Latino Initiatives. They are getting 
roughly 2.7 million hits a year. And the bottom line is that we 
want to do more of this type of thing. We are seeking to 
increase private-sector support across the Institution for our 
Latino-related activities because, frankly, the Smithsonian 
faces significant constraints regarding its Federal budget.
    Our requirements simply far exceed what is available and 
not having enough money to do what needs to be done remains an 
issue. Dealing with our dilapidated buildings and many exhibits 
that are in need of modernization while keeping the public, our 
employees and the Nation's treasured collections safe is a real 
challenge.
    But in spite of that, we are very serious about our 
commitment to seeing that the Smithsonian represents the 
cultural mosaic that has made the United States so vibrantly 
unique. The Smithsonian is truly dedicated to reaching out to 
every American with the story of all Americans.
    Thank you.
    [The statement of Mr. Small follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    The Chairman. I thank the Secretary for his testimony.
    Dr. Yorba.

            STATEMENT OF DR. JONATHAN LORENZO YORBA

    Dr. Yorba. Thank you, Chairman Ney and Members of the 
Committee, for inviting me to comment on H.R. 4863, which will 
authorize the establishment of a Presidential Commission to 
develop a plan of action for the establishment and maintenance 
of the National Museum of the American Latino.
    My name is Jonathan Yorba, and I am honored to appear 
before you wearing three professional hats. First, I am chair 
of the American Association of Museums Latino Network 
Professional Interest Committee, a national group of museum 
professionals that is dedicated to fostering a greater 
understanding and exchange of cross-cultural dialogue on issues 
pertinent to Latinos and Latino art and culture.
    Second, I am adjunct professor of museum studies at John F. 
Kennedy University in Berkeley, California.
    Third, I am executive director of La Plaza de Cultura y 
Artes Foundation, a not-for-profit organization that is 
building--in collaboration with the County of Los Angeles--a 
significant institution that will celebrate the founding of the 
city, the continuing Mexican influence on arts and culture, and 
the growing Latino presence and contributions.
    My hope is that my brief testimony today will help you in 
considering, at a future point, approving legislation that 
would establish the Commission.
    In thinking carefully about my charge, I bear in mind a 
lesson that continues to resonate with me personally and 
professionally: The humanities are referential, dialectic and 
tentative. In the same way, a Presidential Commission would 
need to carefully and thoughtfully consider a number of 
critical factors related to the establishment of a National 
Museum of the American Latino, by placing such factors in 
comparative perspective to other national cultural 
institutions, by engaging in considered dialogue with a number 
of stakeholders, and then presenting to the President and 
Congress a more richly informed perspective than what the 
Commission Members began with.
    In the time that I have, I will address a few of these 
considerations that I imagine the Commission would need to 
explore. They are: need, viability, programs and community 
reception and impact.
    On the idea of whether the Nation needs a Latino museum, 
two ideas come to mind. The first is from the report Excellence 
and Equity, Education and the Public Dimension of Museums, 
whose principles state in general that museums have the power 
to nurture an enlightened humane citizenry that appreciates the 
value of knowing about its past, is resourcefully and 
sensitively engaged in the present, and is determined to shape 
a future in which a variety of experiences and points of view 
are given voice. This speaks to one of the unique features of 
the American museum: its educational dimension.
    The second is a provocative quote that I once heard ethnic 
studies scholar Dr. Ronald Takaki paraphrase: ``What happens 
when someone with the authority of, say, a teacher describes 
the world and you are not in it? There is a moment of psychic 
disequilibrium--as if you looked into the mirror and saw 
nothing.''
    If museums are indeed at their core educational 
institutions, then current residents of and visitors to 
Washington, DC would not be able to find a single prominent 
cultural institution in which to learn about the many 
contributions of Latinos through permanent exhibitions and 
educational programs. But were a National Museum of the 
American Latino to be considered, its viability would then need 
to be examined. This could include such elements as structure, 
site and support. There are a number of existing models to draw 
upon for examples, which again, a Presidential Commission would 
need to explore.
    In reading through the Congressional Record regarding H.R. 
4863, various findings of Congress on the subject are 
presented. Therefore, through such organizations as the 
American Association of Museums Latino Network and other 
related organizations, the Commission would surely discover the 
tremendous variety of Latino cultures and potential exhibitions 
and collections that are available for possible display in such 
a National Museum of the American Latino. The key will be to 
determine how such primary issues as representation and 
(re)presentation--that is the interpretive component--are taken 
into consideration.
    Last but not least, in the American museums' move toward 
civic and community engagement, the Presidential Commission 
would need to listen to the voices of many communities to 
understand how such a national museum would be received. 
Furthermore, in talking with a number of stakeholders around 
the Nation, the Commission Members would learn about the 
existence of a number of Latino museums--whether they are 
focused on a single culture or their mission is to serve pan-
Latino audiences. The Commission Members would then have to 
explore what effect the establishment of a National Latino 
museum would have on these institutions.
    Museums began as cabinets of curiosity, assumed a 
civilizing function, asserted their educational importance, 
have become forums for cultural exchange, and are determined to 
play a significant role in community and civic engagement.
    In order to explore the factors I have briefly raised, as 
well as others that will emerge, I overwhelmingly support the 
establishment of a Presidential Commission to establish a 
National Museum of the American Latino.
    Thank you.
    [The statement of Dr. Yorba follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    The Chairman. Thank you, Doctor.
    And Director Diane Camber.

                  STATEMENT OF DIANE W. CAMBER

    Ms. Camber. Mr. Chairman and committee, thank you for 
inviting me to provide testimony to your committee on H.R. 
4863, creating a commission to study a National Museum of the 
American Latino within the Smithsonian Institute. I very much 
appreciate this honor to be able to speak about this major 
piece of legislation.
    My name is Diane Camber, and I serve as the executive 
director and chief curator of the Bass Museum of Art in South 
Beach, Miami Beach, Florida. I have served in this position 
since 1980, and during this time, we have been fortunate to 
increase the size of our permanent collection fivefold and 
institute a broad range of educational programs, a school 
specializing in technology and art and produce many scholarly 
publications plus organize more than 150 special exhibitions, a 
number of which represent Latino culture.
    We will be one of the host institutions for the Retratos 
exhibition that Secretary Small referred to earlier which will 
open at El Museo Del Barrio in New York and then travel 
throughout the Country, and I believe its last stop will be 
here at the National Portrait Gallery or on the Mall.
    Currently, we are exhibiting Picasso's famous Suite 341 in 
conjunction with the Bancaja Foundation of Valencia, Spain. 
This exhibition reflects the mission of the museum to exhibit 
the best of world art as well as serve our diverse ethnic 
constituents. The Bass Museum of Art is a municipal art museum 
of the City of Miami Beach, and it is also a public-private 
partnership like the Smithsonian.
    It is the city's cultural centerpiece, an encyclopedic art 
museum with the most comprehensive collection in the region. 
The Bass Museum is undergoing a major multiyear expansion 
designed by world renowned Japanese architect Arata Isozaki, 
which will triple our exhibition space, add a media center and 
expanded capabilities for interactive exhibitions and 
educational programming which will undoubtedly enable us to do 
even more with Latino culture.
    Mr. Chairman, we are in the district of Congresswoman Ros-
Lehtinen, and we share her enthusiasm and Congressman 
Becerra's, for the legislation being considered by the 
committee today. We are proud of the leadership that these two 
Congress people have given to this important legislation. And 
before us is an example of their forward thinking, both for the 
District, our district, and the Nation.
    Congresswoman Ros-Lehtinen's district, in fact all of the 
State of Florida, has been greatly enriched by its long 
association with Hispanic culture as well as a significant and 
increasingly diverse Latino population that resides there 
today. Miami and South Florida receive enormous benefits from 
its close proximity to so many vibrant Latin American 
countries. Indeed, Miami is considered the capital of Latin 
America.
    As the committee knows, both native and foreign born 
Latinos in the United States have influenced and enriched this 
Country since its founding, and today, they continue to make 
such a significant contribution in all realms, in academia, the 
arts, humanities and in popular culture, to the benefit of all 
Americans. Their contributions and accomplishments should and 
must be recognized on a scale that is fitting of them.
    In view of this large and growing segment of our 
population, in view of the astounding contributions that 
Latinos have made to our Nation, consideration of this National 
Museum of the American Latino is essential. On a personal note, 
as a native Floridian, I should share with you that Desi Arnaz 
performed as a 17-year-old immigrant from Cuba in a small cafe 
that my father opened in South Beach in the 1930s and went on 
to great fame as an entertainer. Recently, I had the delight to 
meet his daughter, Lucie, who was performing in Picasso at the 
Coconut Grove Playhouse in Miami, who told me when I revealed 
this that her father talked about this. His parents in Cuba 
hadn't wanted him to be an entertainer. He left Cuba, came from 
an affluent family, came to Miami and got his first job as a 
guitarist and went on to great fame and fortune.
    Other Latinos like Desi Arnaz have come to our shores and 
added so much from every country in Central and South America 
and the Caribbean, and I have been fortunate to work with 
artists from many of these countries and communities. I have 
long been impressed with the significant contributions in the 
realm of the visual arts, of course, but also in the realm of 
popular culture and entertainment.
    The exhibits on our National Mall that are so important as 
an attraction to this area, but not only that, as a mecca for 
all of us who reside in this Country, will only be enhanced by 
the addition of such a museum. With the leadership of this 
committee and the Smithsonian, I am looking forward to the day 
when this happens. And when such a museum will join the family 
of Smithsonian museums, it will surely become a nationally and 
internationally renowned center for the study and appreciation 
of the diverse and great contributions that Latinos have made 
and continue to make to the benefit of our Nation. And it will 
be a beacon for all time.
    Thank you very much, Mr. Chairman and committee, for 
considering and forwarding this important legislation.
    [The statement of Ms. Camber follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    The Chairman. Thank you very much for your testimony.
    I have a question, and I don't know who would be the most 
appropriate to answer, possibly the Secretary, also Congressman 
Becerra is still here if he would like to answer. I was looking 
at the Senate language, and it said, ``possible locations for 
the museum in Washington, DC, and its environs to be considered 
in consultation with,'' et cetera. In the House bill, it says: 
``possible locations for the museum on or adjacent to the 
National Mall in Washington, DC.'' So that is one difference of 
the two bills.
    With the African-American museum we had discussions about 
sites--where it would go. The commission to set-up the museum 
had a lot of different opinions. Of course, we worked with 
Congressman Lewis and Kingston and developed a totally agreed-
to bill. However the issue always comes up of site locations.
    On this particular issue, like you said, the one bill is 
saying in the environs of Washington, and the other says on or 
adjacent to the National Mall. I am not debating that issue, 
but I have a question. When commissions look at this, if it 
says on or adjacent to the National Mall, does that limit the 
commission's ability to look at a wide scope of where a museum 
would go? Considering we are running out of space, does that 
limit it or does that not hinder a commission's ability to look 
at where a museum would potentially go?
    Mr. Becerra. Mr. Chairman, I think you have articulated 
well some of the issues that come up with regard to any museum 
or institution that we may try to place somewhere in 
Washington, DC.
    The language that we used in the House differs slightly 
from the Senate. The adjacent allows it to be something that 
could be built somewhere within the D.C. area, certainly close 
to the Mall. The language in the Senate offers you more of an 
expansive interpretation of where it could be placed. And I 
think most us, whether in the Senate or the House, probably 
would agree that this is something really that the commission 
would come back to Congress and recommend.
    Those of us who are interested in moving this issue forward 
want to move the issue forward and do not want to, in the 
initial step of forming the commission, constrain that 
commission and its experts from coming up with the best place, 
the best way and all of the different implements and tools that 
would be needed to make it happen from being inside the ability 
of the commission to decide.
    So those are the issues that, at the end, will be left to 
the commission to decide. And the language provides some 
latitude for them to make those determinations.
    The Chairman. So the Senate language is quite broad, but 
your language is not saying it has to be looked at only on the 
Mall, because the commission might come back and say there is 
no room, but it would be adjacent areas to the Mall.
    Mr. Becerra. That is correct.
    The Chairman. Thanks. That clears up my question.
    The District of Columbia--help me on this, I am sympathetic 
of our Congresswoman from the District of Columbia, because any 
time something goes on within the District--(it is our second 
city, we have our home cities but we spend a couple of days a 
week here). The District of Columbia is involved in 
consultation--are they or are they not--when the commission 
looks at it?
    Mr. Secretary. Any input--I am talking about traffic, 
parking.
    Mr. Small. Probably, that would be the case when a 
commission like--I would imagine--I believe that would be the 
case because, obviously, when people get to either siting a 
building or designing a building, they end up having to talk to 
various authorities in the City Government, the National 
Capital Planning Commission, the Fine Arts Commission et 
cetera. So it would be perfectly normal that they would be 
consulted.
    The Chairman. Congresswoman Eleanor Holmes Norton, whether 
we are talking about closing Independence or Constitution, we 
always try to agree for the interests of the District of 
Columbia. I am just talking about traffic and the future plans 
of the District of Columbia, and that answers my question.
    The only other one I would have, so I won't take up all the 
time, Ms. Camber, you have had a lot of success in expanding 
the collections at the Bass Museum of Art, and you have grown 
the museum itself. Can you just tell us a couple of key 
ingredients doing that? Also were there any key stumbling 
blocks?
    Ms. Camber. I think the key ingredient is recognizing the 
diversity of the community, and it is recognizing their 
interests. Because when I came to the museum, the only 
collection was a predominantly European old masters collection. 
And while that has proved very significant and served the 
universities in particular as being an area where they could 
study in the flesh, if you will, a Rubens painting or a 
Botticelli, it was important to look at the greater community 
and see where its interests were.
    So I think that is very, very important. I would hope that 
this new museum will be as diverse as it could possibly be and 
give some attention--I am sure people have given thought to 
this already--to the Caribbean communities also that are part 
of the Latino culture. In a way, if we are talking about 
linguistically, we are less recognized--Miami is such a 
microcosm for the diversity of the Latino culture,we have 
virtually every Latin American, Central American and Caribbean culture 
residing in our area, and many, many artists. And also, involving 
artists is very important in this effort. They are often overlooked in 
the process. We are consumers of art in an art museum, but involving 
the artist in the planning process may be important.
    Growing the collections, I think, for a national museum 
will probably be far easier than it has been for a regional or 
local museum. I think, when you do this, people will come 
forward with collections of all sorts. But there are many 
important Latino culture collections that reside in private 
hands that may come out when it is announced in a formal way 
that there truly will be such a museum. And I see it as being a 
highly successful endeavor.
    The Chairman. Dr. Yorba, if this proceeds, do you see--in 
what you have been involved with as professional interest--a 
networking where you will get advice or consultation from 
museums across the U.S. to come up with ideas?
    Mr. Yorba. Absolutely. A number of years ago, one of the 
programs that the Center for Latino Initiatives produced was to 
bring together, for the first time, all of the directors of 
Latino museums. There is a broad network. In addition, the 
Latino Network that I chair has as its purpose to be that 
vehicle. In addition, I brought with me a listing of the Latino 
museums in the Nation. We are in the process of updating it, 
but when I flipped through it this morning as I was flying in, 
there is nothing in Washington, DC. So as we are talking about 
the concept of physical space, there surely is a need.
    There is another kind of a space though that I would like 
to bring up, and that is the concept of social space. Having 
the level of representation at the national level is critical.
    The Chairman. Thank you.
    The gentleman from Connecticut.
    Mr. Larson. Thank you, Mr. Chairman.
    And again, I want to thank the panelists. I have three 
questions and primarily informational, and one of them I am 
going to direct to Representative Becerra who has worked so 
hard on this and whose passion I so deeply appreciate. It is 
really just one of a semantical question, I guess. But in terms 
of arriving at--in the discussion between you and Ileana and 
the committee, how did you arrive at the name of American 
Latino? And was there discussion?
    Because oftentimes my constituents will inquire of me the 
difference between Latino and Hispanic and what that means 
culturally. I would find that informative myself and would be 
interested in how you arrived at that.
    My second question would be directed to Dr. Small and that 
would be on, based on the already $1 million budget cut in the 
Appropriations Committee--and I noted your very political 
answer, and plus your enthusiasm for wanting to move forward 
with this, what is it that you would need, facing all the 
conditions that you face currently, as you pointed out very 
appropriately, with all the challenges the Smithsonian has, 
what kind of funding level do you think you would need in order 
to proceed?
    And finally, to both Dr. Yorba and Ms. Camber, when you are 
looking at the largest Latino museums in the Country, where are 
they? And do you have particular specializations by type of 
exhibit or countries represented? Do they tend to be in general 
collections?
    Those are the three questions I have, and I will start with 
the distinguished gentleman from California.
    Mr. Becerra. Mr. Larson, if there is any question more 
difficult to answer than where will you site this museum in 
Washington, D.C., it is what will you name it, for the reasons 
you just pointed out. If we were to go to certain parts of the 
Country, New Mexico, you might want to call it the Hispano-
American museum. Some areas of the Country would say Hispanic-
American. Others would say American Latino.
    I, frankly, do not care so much about the name. I am more 
interested in what Dr. Yorba said, about having the social 
presence, physical presence of an institution that would 
reflect what we are as an American people. And the last thing I 
would want us to do is get to the point where a name is what 
stops us from having an institution.
    But it was a name that was discussed among many who worked 
on this issue. And we adopted what we thought was what was most 
supported and proposed by those who have been expert in moving 
this issue forward over the many, many years.
    Mr. Larson. Again, I thank you for your passion.
    And Dr. Yorba I saw you nodding your head did you want to 
comment at all?
    Mr. Yorba. There is an African American historian who has 
written that ``naming is a form of power, and images have the 
power to define place and personality.'' And very much what 
Congressman Becerra said is true. If you go to different parts 
of the Nation, people will say that they self-identify in 
different ways.
    The most critical part of the name to me is the ``national 
museum.'' It speaks, therefore, of the place and power to 
define that social space for Latinos.
    And, again, I am sure that the Commission will have some 
very interesting, perhaps contentious, conversations. But in 
the end, what really matters is that we are creating the actual 
entity for the display of Latino material culture.
    Mr. Larson. Very well put.
    Did you want to comment as well, Diane?
    Ms. Camber. I agree with Dr. Yorba. What is most important 
is that there be such a national movement. I think the word 
Latino or the use of that term perhaps wise to an extent 
because it is the most inclusive. So you might want to consider 
in this museum representing cultures that are represented in 
our population, certainly in Miami, such as Brazilians who are 
not Spanish speaking and Caribbean cultures. That is going to 
be for the commission to decide. But that is a personal 
perspective. I deal with that on a daily basis.
    Also, we have a large Haitian community which can be 
considered Latin in the broadest sense, because French is a 
related language there. But whatever it is, it should be a 
national museum that finally represents this huge and growing 
part of our population. And the diversity of the collections is 
a consideration also. Will it have history and art? I think it 
probably should, but, again, that is my personal perspective.
    Mr. Small. If the question is what kind of incremental 
resources would a museum of this nature entail, obviously, it 
would be premature to comment simply because the commission has 
not even made any recommendations as to what it would be. 
Empirically, if you look back at other museums that the 
Smithsonian has done, the National Museum of the American 
Indian or other large museums, you are talking about a project 
that, had it been done in the late 1990s and early 2000, a 
museum like the new Air and Space Museum is a $300 million-plus 
project. The National Museum of the American Indian totals $220 
million.
    And then you end up ultimately with staffs in these stand-
alone museums of several hundred people, costing tens of 
millions of dollars a year. So, if the commission were 
ultimately to recommend such an institution and have it in the 
Smithsonian, you can be sure that it will require hundreds of 
millions of dollars to create it and tens of millions a dollars 
a year to run it.
    Mr. Larson. Plus that also we must take into consideration 
as well, as you said, the ongoing maintenance of all the 
Smithsonian facilities, sets. So my point was that with budget 
cuts like this, I know the balancing act that goes on, and I 
think it is important that our committee especially, which has 
cognizance, makes sure to the appropriating committees just how 
important this is and the fact that we want to see appropriate 
funding there because of the kind of treasures, as you so 
appropriately put it, that you protect and safeguard and the 
tremendous exposure that Americans have.
    I was here on the 4th with my family and just saw the 
massive crowds; in fact, went by and didn't have the fortunate 
experience of hearing Mr. Becerra, but nonetheless we did enjoy 
a lot of the music that was pervading from the Mall as well. It 
is an extraordinary experience.
    We are so well served by the Smithsonian and we should 
endeavor to do everything we can to make sure you are 
appropriately funded. Thank you.
    For Dr. Yorba and Ms. Camber, my question was about the 
largest museums that exist today and what kind of specialties 
they present and perhaps your vision, part of which you already 
started down the path, to talk about what you see for the 
national museum.
    Mr. Yorba. To your point, you said, ``Where are they?'' And 
I imagine you are talking about the collections, the material 
culture that exists. If you go to the majority of the leading 
institutions in any State, you will find something. Diane 
mentioned that there are a number of private collections. But 
there is also an important collection, and that is the 
Smithsonian Institution itself, in which it has art, history, 
and other kinds of material culture that are in the process of 
being revealed through exhibitions.
    I know that that is something Secretary Small and other 
initiatives are working collectively on with the Institution. 
The critical point is that the Nation owns much of this 
material, and it is now up to the Commission to determine how 
to work not only with the Smithsonian, but also with other 
institutions throughout the Nation--perhaps in some kind of 
reciprocal relationship to have the works displayed.
    Ms. Camber. I am not an expert on Latino museums in the 
United States, but my overall impression is that they tend to 
be small and started up because of local interest and 
participation, and that they need a lot of nurturing and are 
beginning to grow and develop. But I think having such a 
national museum would help these institutions, because 
therewould be this great national recognition of these important 
cultures.
    Mr. Larson. I thank all three of you for your very fine 
contribution and testimony.
    The Chairman. The gentleman from Michigan.
    Mr. Ehlers. Thank you, Mr. Chairman. I would like to get 
into some of the broader policy issues. Before I do that, I 
would just suggest to resolve the naming controversy, just name 
it the Becerra museum or the Ros-Lehtinen, things like that. 
That is the good news. The bad news, of course, we couldn't do 
that until you die, so you will never get to see it.
    But I am most worried about the broad policy issues. And I 
recall when we considered the African American Museum and its 
location, they wanted it on the Mall. The argument was, well, 
the American Indian or Native American Museum is on the Mall, 
so we should be in the Mall too. Largely because of the Senate, 
I believe they simply said no. And, frankly, my druthers would 
be that the American Indian not be on the Mall either.
    And, Mr. Small, these questions are primarily addressed to 
you, because even though you said you don't comment on pending 
legislation, you do have the responsibility for the overall 
planning and policy setting for the museum along with your 
board. And it seems to me what would be ideal in this situation 
rather than to do as we have been doing, which is just sort of 
a hodgepodge--someone wants a museum, we say yes, and they 
raise some money and we do it, and on an ad hoc basis decide 
where it is to be located, et cetera--it would be much better 
to have an overall policy of we are going to have, for lack of 
a better term, cultural museums. I think there would be real 
advantages to having them side by side so that members of the 
general public who are interested in all these different 
cultures can see them on one trip or become acquainted with 
them on a one-by-one basis.
    Another question is the financial aspects. I recall meeting 
with you shortly after you took your position, and your biggest 
concern was where is the money coming from? And you had to do 
some serious chopping over a number of years. In fact, I was 
worried you might get the nickname ``Chainsaw Larry'' with all 
the cutting that you had to do. And I wouldn't be surprised if 
your staff had already dreamed that up before I mentioned it. 
There are some serious problems here.
    Another issue that it seems to me is important, are you 
going to do this on a linguistic basis? And, Ms. Camber, you 
mentioned something related to that problem. I had thought of 
the same thing before. If we do something for the Latinos, what 
about the Brazilians, what about some of the Caribbean nations' 
different languages, or even there are some that speak Dutch. 
So are you going to do it on a linguistic basis or location 
basis or a cultural basis? And then the question is how are we 
going to deal with all the future requests. My parents were 
Dutch immigrants, so I am partial to the Dutch. My wife's 
parents were also Dutch immigrants. So we are both partial to 
the Dutch. I think it would be wonderful to have a Dutch 
museum. But then you may have other groups. Our Chairman may 
want a Farsi-speaking museum. Appalachians that speak Farsi. 
Okay, that might reduce the fund-raising basis quite a bit.
    But at any rate, what I am getting at, Dr. Small, is the 
real issue here of what is our policy going to be. We can't ad-
hoc it anymore. We have done that already and I don't think the 
results have always been that good. I think it would be great 
if we could establish a cultural center. They are supposedly 
going to tear down the old Convention Center. Would that be a 
good location for a cluster of culture museums where people who 
are interested in that can see not only their own heritage but 
the heritage of many other peoples? Because after all, we are 
Americans. We come--there are many cultures, but we are unified 
as Americans. And so you can have something that brings 
together everyone.
    These are some of the issues I would like to see addressed. 
We are not going to do it as long as we do this on a one-by-one 
basis, building-by-building basis.
    Now my question to you is, have you thought about any of 
these questions? Has your board looked into any of these 
questions? Are you interested in developing an overall policy 
for cultural museums? And if so, where does that stand?
    Mr. Small. These questions most certainly have been debated 
and extensively discussed by the Board of Regents at the 
Smithsonian, and certainly by the staff, for an extended period 
of time. I think the essence of it all is that the Smithsonian 
is responding more than anything else to Congress.
    Congress's first wish over the last few years has been for 
the Smithsonian allegedly not to expand. And the reason is that 
there is a billion and a half dollars of deferred maintenance 
on the existing buildings, and the funding has been very tight. 
And there is certainly no lack of logic in that particular 
point of view. But at the same time, legislation has been 
passed to have a National Museum of the American Indian, a 
National Museum of African American History and Culture, and to 
have them in the Smithsonian.
    The Smithsonian is delighted to be working on these and 
honored to be working on them, but has to deal with the issue 
that, as these multi-hundred million dollar projects get put in 
place that carry with them tens of millions of dollars 
ofoperating cost, it also to a certain extent, has had its base 
operations cannibalized to do these new things. And these new things 
involve further maintenance.
    As to whether there could be a master plan for this, that 
would be something that the Congress would get behind in a big 
way, I honestly don't know. But we are right now dealing with a 
series of very specific pieces of legislation that have been 
enacted in the past.
    The issue of the Mall has not been put out of bounds for 
the National Museum of African American History and Culture. 
The four sites cited in the legislation have to ultimately be 
chosen among by the Smithsonian's Board of Regents; and two of 
them are, in fact, on the Mall. So that is not a topic that has 
come to an end.
    It may be that there could be some master plan out there 
that would be acceptable to Congress. But I think the fact is 
that we are dealing with specific pieces of legislation that 
have been initiated by Members of Congress. And it may well be 
that there will be others coming as other groups, as you point 
out, see the success of, let's say, the National Museum of the 
American Indian, which I think is going to be brilliantly 
executed, and the National Museum of African American History 
and Culture, which will have all the signs of being a superb 
institution as well.
    Mr. Ehlers. So your basic answer is you don't see yourself 
as setting the policy unless the Congress asks you to establish 
the policy for these museums.
    Mr. Small. I think it would be highly improbable that the 
Smithsonian could set the policy on this when the issues that 
the Smithsonian faces regarding its museums are largely 
financial. And if the money isn't there to run the Smithsonian, 
which is the case today, the Smithsonian certainly wouldn't put 
itself in the position of recommending expansion. If the 
Congress decides to expand by adding on new institutions, the 
first thing we would say is let's take care of what we have; 
then, if you want to do a new institution, let's make sure the 
funding is there for that. But for us to be proposing--given 
the billion and a half dollar backlog of maintenance that we 
have--new institutions, without having the Congress saying that 
is what we want to do--would strike me as just falling on--
something that would fall on deaf ears.
    Mr. Ehlers. So your first answer really is, show me the 
money.
    Mr. Small. Not only the first one; it is going to be the 
last one, too.
    Mr. Ehlers. All right. I appreciate your forthrightness. I 
believe it is important.
    Mr. Chairman, I really think it might be advisable that we 
do this in conjunction with the Senate; that we simply say we 
can't go on one by one this way. We have to have an overall 
plan of location, of financing, of how we are going to do this.
    I think we are in a real problem here with if we don't get 
more money allocated for this. And I have nothing against any 
of the projects proposed, but we can easily destroy what we 
have and add something new, which in turn would be destroyed as 
something else comes along. So I would suggest that as we 
consider this we talk about either establishing a commission to 
do the overall policy planning, or ask the Smithsonian to do it 
and outline very specifically what the financial needs are 
going to be. I yield back.
    The Chairman. Just for the record, so we don't get 
thousands of letters from Afghani or Iranian Americans that 
speak Farsi, I am an Appalachian that happens to speak Farsi. 
So we are saying that in jest. So it would be a museum of three 
people.
    The gentlelady from California.
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    I am concerned about the safety issue that has been brought 
to the attention of those of us who sit on this committee and 
on the Transportation Committee with reference to these old 
buildings and the renovation of these buildings, namely that of 
the Smithsonian. It comes to the buildings, public buildings 
and Federal buildings, in the Transportation Committee.
    So the first thing, setting aside this, where are we in 
terms of Mr. Small, Secretary Small, the $1.5 billion that we 
are talking about their renovation, because in trying to make 
sure we secure the perimeters of all of these buildings, we 
need to look at the inner workings of these buildings when the 
public is coming through. So the first thing that I ask you is, 
where are we in trying to get the appropriation that is endemic 
to the renovation of the Smithsonian, which is one of our prize 
buildings?
    Mr. Small. Thank you for that question, Congresswoman, 
because I think it is a very, very important question. My 
answer to you would be that we are making very strong progress 
because of the support that Congress is giving to this issue. 
We are not where we need to be yet. If you have a billion and a 
half dollars worth of deferred maintenance, our thought was it 
would be prudent and reasonable to ask the Congress to try to 
give us 150 million dollars a year towards that problem, so 
that over the course of the decade we could whittle away at it 
and clean it up.
    When I came on board at the Smithsonian in the year 2000, 
we were getting about $44 million a year and we are now at over 
the $120 million level. So in about 4 or 5 years' time we have 
made significant progress. But given that we are adding on 
these new museums, we are going to have to get over $150 
million a year that will have to be there allthe time to take 
care of these buildings.
    So I think to realistically go from $40 million-plus a year 
to $120 million-plus a year in 4 or 5 years represents clearly 
that Congress is getting behind this effort. But we have to 
remember, we have to get over $150 million a year.
    I couldn't agree more with what you have said. I haven't 
met anybody in Congress who really doesn't agree that the 
safety of the collections, the safety of our visitors, the 
safety of our staff--we even have day care centers in these 
buildings--so of the children who are there, not to mention all 
the millions of students who come--is paramount.
    I think we are making good progress. The Smithsonian 
buildings are safe and where there have been safety issues we 
have closed off those areas and made sure they are not being 
accessed by the public.
    Ms. Millender-McDonald. Those are things that I think we do 
have that is disturbing to me, because that is one of our prize 
possessions here this country. You should not be closing off 
any institution or any Federal building that suggests art work 
by all of the people of this country, other countries.
    So I would like to talk with you more about that, as I have 
talked with Congresswoman Holmes Norton, about the Federal 
buildings and as we look at the outer perimeters of protecting 
the buildings, we have to ensure the protection inside of the 
buildings where the public and our children who have child care 
come through.
    Now, when it comes to the request for the other museums, 
certainly one would suggest that most groups want to see the 
establishment of something that holds dear to them their 
culture and the art work and the material records that will 
connote generations to come knowing those things that are 
inside of these museums.
    It seems to me like we need to have an assessment of land 
use around here, Mr. Chairman, to see just where we are, where 
we must and need to go, where can we go, if anyplace. I know 
the Museum of African American--the National Museum of African 
Americans has had its growing pains in trying to find a 
suitable place--which has yet, I suppose, Secretary Small, has 
not been decided?
    Mr. Small. Correct.
    Ms. Millender-McDonald. Because of myriad issues in the 
limitation of land use. So it appeared to me that before we can 
do anything else, giving that we have this one kind of in 
abeyance, the National Museum of African Americans, we need to 
look at some land-use space and the limitations so that we can 
provide any commission that comes forward with those 
limitations.
    And certainly I would suggest to my friend, the 
distinguished gentleman out of California, that we do not wish 
to limit ourselves on talking about where we want it, because 
the Senate will sure enough come in and say no, or you can't do 
this, or a group of persons who may have gotten together on the 
African American one has suggested that we can do that, as well 
as the citizens here in Washington also have weighed in on 
this. So we have to first see where we are before we can get to 
where we want to go. And that would be my request to have an 
assessment of the land use.
    Thank you, Mr. Chairman.
    The Chairman. I want to thank the gentlelady. She has hit 
on something very important. That is why I mentioned the 
District of Columbia and Congresswoman Eleanor Holmes Norton, 
the Mayor, the Council, planning commissions, because as we sit 
here--and I think we have to be cognizant and sympathetic 
toward communicating and working with the District of Columbia. 
It is great to have all the tourists, and to see them back 
here.
    This committee, all of you on this committee, have helped, 
as we all have since 9/11, to keep the building open. The 
Speaker has been insistent on safety and security, keeping the 
building open, and that is great. There are a lot of tourists 
now that are coming back; you see the crowds.
    The more museums or buildings or whatever that are built, 
if we always just look towards the Mall, what do we do about 
traffic and parking? How do tourists actually park somewhere 
within walking distance; or are there going to be more shuttles 
or transportation use that can be thought of to get people back 
and forth? I think those are things that must be taken into 
consideration--I know Congresswoman Eleanor Holmes Norton has 
always been cooperative, but obviously wants the input of the 
District. I think that is a good thing to be aware of and to 
look at future planning. Thank you.
    With that, I want to thank again all the witnesses, both 
panels who have worked so hard, our two Members of Congress who 
are working together on this. Everybody is prepared for the 
hearing as usual, Mr. Larson, his staff and our staff and all 
the members that are here today.
    I ask unanimous consent that members and witnesses have 7 
legislative days to submit material in the record for their 
statements and materials. It will be entered in the appropriate 
place in the record. Without objection, materials will be 
entered.
    I ask unanimous consent that staff be authorized to make 
technical and conforming changes on matters considered by the 
committee at today's hearing. Without objection, so ordered.
    Having completed our business today, the committee is 
hereby adjourned. Thank you.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [Whereupon, at 2:55 p.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
